Ye

     VA Office of Inspector General
                                      OFFICE OF AUDITS AND EVALUATIONS



                                                                         Veterans Benefits 

                                                                          Administration


                                                                                 Review of 

                                                                         Alleged Mismanagement 

                                                                            at the Eastern Area 

                                                                               Fiduciary Hub 





                                                                                            May 28, 2014
                                                                                            13-03018-159


             ACRONYMS AND ABBREVIATIONS

EAFH         Eastern Area Fiduciary Hub
F-B          Fiduciary-Beneficiary
FBS          Fiduciary-Beneficiary System
IA           Initial Appointment
OIG          Office of Inspector General
P&FS         Pension and Fiduciary Service
VA           Veterans Affairs
VBA          Veterans Benefits Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov


                 (Hotline Information: www.va.gov/oig/hotline) 

                    Report Highlights: Review of Alleged
                    Mismanagement at VBA’s Eastern
                    Area Fiduciary Hub

Why We Did This Review                         examinations exceeded VBA timeliness
                                               standards. As a result, the general health
We performed this review to determine the      and well-being of beneficiaries are placed at
merits of three allegations made to the VA     increased and unnecessary risk.
Office of Inspector General Hotline in
May 2013. The complainant alleged that the     We also identified more than 3,200 pieces of
Eastern Area Fiduciary Hub (EAFH) in           mail that had yet to be processed and
Indianapolis, IN, was not timely processing    exceeded EAFH’s timeliness standards,
allegations of misuse of beneficiary funds,    some of which were time-critical. Delays in
conducting     field    examinations,   and    processing the 3,200 pieces of mail ranged
processing some incoming mail.                 from 11 to 486 workdays, with an average
                                               delay of 30 workdays. Without effective
What We Found                                  management of incoming mail, those
                                               receiving VA benefits may be affected.
We substantiated the three allegations.
Merit reviews for 190 of 214 allegations of
misuse of funds and 17 of 23 investigations    What We Recommend
of fiduciary misuse of funds were not          We recommended the Under Secretary for
completed by EAFH within Veterans              Benefits require EAFH implement controls
Benefits Administration (VBA) performance      to ensure timely processing of allegations of
standards. We also found EAFH made             misuse of beneficiary funds. In addition, we
12 determinations concluding fiduciaries       recommended the Under Secretary for
misused approximately $944,000 of              Benefits ensures EAFH implements a plan
beneficiary funds.      However, required      to expedite completion of the backlog of
actions in response to identifying misuse of   field examinations, and to ensure
funds, such as replacing the fiduciary or      implemented actions continue to reduce the
requesting     repayment     from    former    backlog of mail during FY 2014.
fiduciaries, were not completed or
completed timely by EAFH.                      Agency Comments
Additionally, reviews to determine if VBA      The Under Secretary for Benefits concurred
was negligent in its oversight of the          with our recommendations, but also
fiduciaries in instances where misuse of       included technical comments on our draft
funds occurred were not conducted as           report. We included the Under Secretary’s
required.    As a result, VA may be            comments in Appendix C.
responsible for repayment of approximately
$944,000 to the affected beneficiaries.

We also substantiated the allegation that
EAFH had a large backlog of pending field                LINDA A. HALLIDAY
examinations by identifying more than                 Assistant Inspector General
11,000 (69 percent) of 16,000 pending field           for Audits and Evaluations
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 


Results and Recommendations ........................................................................................................2
 


    Allegation 1   EAFH Did Not Timely Complete Reviews and Investigations of Misuse of 

                   Beneficiary Funds Allegations............................................................................2
 


                           Recommendations ...............................................................................................6

 

    Allegation 2  EAFH Had a Significant Backlog of Pending Field Examinations ....................8
 


                           Recommendation...............................................................................................10
 


    Allegation 3  Some EAFH Incoming Mail Is Not Processed Timely .....................................12
 


                           Recommendation...............................................................................................14
 


Appendix A                 Scope and Methodology................................................................................... 16

 

Appendix B                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments..................................................................................................... 18

 

Appendix C                 Under Secretary for Benefits Comments ..........................................................19
 


Appendix D                 Office of Inspector General Contact and Staff Acknowledgments .................. 25

 

Appendix E                 Report Distribution........................................................................................... 26
 

                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub



                    INTRODUCTION
Purpose of the      We performed this review in response to allegations made to the VA Office
Review              of Inspector General (OIG) Hotline in May 2013. This review assessed the
                    merits of allegations that the Eastern Area Fiduciary Hub (EAFH) in
                    Indianapolis, IN, was not timely processing allegations of misuse of
                    beneficiary funds, conducting field examinations, and processing incoming
                    mail. Appendix A provides details on our scope and methodology.
Background          The Pension and Fiduciary Service (P&FS) is responsible for the Veterans
                    Benefits Administration’s (VBA) Fiduciary Program. The Fiduciary
                    Program oversees VA benefits paid to beneficiaries who are incapable of
                    handling their financial affairs either because of injury, disease, infirmities of
                    advanced age, or being under 18 years of age. Under the program, VA
                    appoints a fiduciary (individual or entity) to receive and disburse VA
                    benefits on behalf of the beneficiary. As of August 2013, the Fiduciary
                    Program reported providing oversight of fiduciaries responsible for more
                    than 150,000 beneficiaries.

                    In 2008, VBA began consolidation of the Fiduciary Program under the
                    Fiduciary Hub Pilot Program. According to VBA, by March 2012, VBA
                    completed consolidating 56 VA Regional Offices’ fiduciary operations into
                    6 regional “hubs” plus Fiduciary Program operations in Manila, Philippines.
                    The hubs are located in:
                       Indianapolis, IN
                       Louisville, KY
                       Lincoln, NE
                       Columbia, SC
                       Salt Lake City, UT
                       Milwaukee, WI

                    Under the consolidation, EAFH assumed responsibility for all beneficiaries
                    in VBA’s Eastern Area, which spans 14 states and encompasses fiduciary
                    activities of 16 VA Regional Offices. EAFH management provided
                    information showing the hub oversees a staff of 210 full time employees,
                    which includes Field Examiners, Legal Instrument Examiners, managers, and
                    clerical staff.    Field Examiners conduct examinations to assess the
                    competence and welfare of a beneficiary, as well as review the performance
                    of fiduciaries and fund usage. Legal Instrument Examiners review scheduled
                    accountings provided by fiduciaries to ensure funds are used in the best
                    interest of beneficiaries. Other Legal Instrument Examiner responsibilities
                    include following up on allegations of misuse of beneficiary funds and
                    reviewing incoming mail.



VA Office of Inspector General                                                                      1
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub



                    RESULTS AND RECOMMENDATIONS
Allegation 1 	 EAFH Did Not Timely Review and Investigate Misuse of
               Beneficiary Funds Allegations

                    We substantiated the allegation EAFH was not consistently in compliance
                    with VBA timeliness standards and policies when completing reviews and
                    investigations of misuse of beneficiary funds. For example, the majority of
                    merit reviews for 190 (89 percent) of 214 allegations of misuse of funds were
                    not completed by EAFH within VBA’s performance standard of 14 days
                    after receipt of an allegation. Additionally, 17 of 23 investigations of
                    fiduciary misuse of funds were not completed by EAFH within VBA’s
                    performance standard of 45 days after completion of a merit review.

                    We also found that EAFH determined fiduciaries misused funds of
                    approximately $944,000 for 12 beneficiaries. However, required actions in
                    response to identifying misuse of funds, such as replacing the fiduciary or
                    requesting repayment from former fiduciaries, were not completed or
                    completed timely by EAFH. Additionally, P&FS reviews to determine if
                    VBA was negligent in its oversight of the fiduciaries in instances where
                    misuse of funds occurred were not conducted as required.

Criteria 	          The review and investigation of misuse allegations by EAFH represents an
                    important monitoring strategy to ensure the appropriate oversight of
                    beneficiary funds. According to VBA policy, misuse of funds is any
                    instance where a fiduciary uses beneficiary funds for purposes other than for
                    the use and benefit of the beneficiary or their dependents. When VBA
                    receives an allegation of misuse of beneficiary funds, VBA policy requires
                    the following.

                    		 The hub that provides oversight of the fiduciary conducts a merit review
                        of the allegation.1 The merit review must be completed within 14 days of
                        receipt of the allegation.
                    		 If the allegation is considered by the hub to have merit, staff conducts an
                        investigation to determine if misuse of funds has occurred. The misuse
                        investigation must be completed within 45 days after completion of the
                        merit review.
                    		 VBA staff have 30 days after completion of the misuse investigation to
                        make a determination. A misuse determination is an official decision
                        document that states the staff’s conclusion as to whether misuse of funds


                    1
                     The purpose of a merit review is to determine whether an allegation of misuse may have
                    validity and warrants an investigation.



VA Office of Inspector General                                                                           2
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                        occurred. All misuse determinations are required to be forwarded to VA
                        Central Office.
                    		 If VBA staff determines that misuse of funds occurred, the staff must
                        take action to replace the fiduciary and request return of misused funds.
                        Under VBA policy, when misuse of funds has been determined by VBA,
                        the fiduciary must be replaced within 60 days of the date the allegation
                        was received.
                    		 VA is required to reissue misused funds in any case where the fiduciary
                        was not an individual, was an individual serving 10 or more beneficiaries
                        in the month that the misuse occurred, or was an individual serving fewer
                        than 10 beneficiaries when negligence is found.
                    		 A VA Central Office negligence review is required when the fiduciary is
                        an individual who served fewer than 10 beneficiaries during the period
                        when the misuse occurred. The purpose of the negligence review is to
                        determine if VBA was negligent in its oversight of the fiduciary. If VBA
                        is found to be negligent in its oversight of the fiduciary, VA is required
                        to make restitution of the misused funds to the beneficiary.

                    To determine whether EAFH timely completed reviews and investigations of
What We Did
                    misuse of beneficiary funds, we analyzed merit reviews and investigations
                    initiated by EAFH from March 2012 through April 2013. We analyzed
                    214 merit reviews and 23 investigations to determine compliance with VBA
                    timeliness standards and policies. Additionally, in those cases where VBA
                    determined that misuse of beneficiary funds had occurred, we followed up
                    with EAFH and P&FS to determine whether misused funds had been repaid
                    by the fiduciary and reissued to the beneficiary.

Improvement         Of the 214 merit reviews of allegations of fiduciary misuse of funds initiated
in Timely           by EAFH, 190 (89 percent) were not completed within 14 days of receipt.
Reviews and
Investigations
                    The average time to review the 190 allegations of misuse was 162 days,
Needed              which includes 87 reviews that were not complete as of July 2013.
                    Figure 1 summarizes the range of days for merit reviews during the period of
                    March 2012 through April 2013, using Fiduciary-Beneficiary System (FBS)
                    data.




VA Office of Inspector General                                                                    3
                                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                                         Figure 1. EAFH Merit Review Timeliness from March 2012
                                                          through April 2013
                                         50
                                                                                     47
                                         45
                                                                                                   43
                                         40




                        Merit Reviews
                                         35                                                                              32
                                         30
                                                   24
                                         25
                                                            21        21                                    20
                                         20
                                         15
                                         10
                                                                                                                                6
                                             5
                                             0
                                                  0–14    15–50     51–100     101–150       151–200    201–250     251–300   300+

                                                           Days to Process (14 days or less is timely)

                      Source: OIG using FBS data

                    We found EAFH had not processed and completed 17 of 23 fiduciary misuse
                    of funds investigations (74 percent) within 45 days of the completed merit
                    review. The average time to complete the 17 investigations was 174 days,
                    which includes 5 investigations that were not complete as of July 2013.
                    Figure 2 summarizes the range of days for misuse investigations by EAFH
                    from March 2012 through April 2013.

                       Figure 2. EAFH Misuse Investigations Timeliness from March 2012
                                            through April 2013
                                         8
                                                             7
                                         7
                                                    6
                                         6
                        Investigations




                                         5
                                                                                                                               4
                                         4
                                                                           3
                                         3
                                                                                         2
                                         2
                                                                                                                     1
                                         1
                                                                                                        0
                                         0
                                                  0–45     46–100     101–150      151–200        201–250         251–300     300+

                                                          Days to Process (45 days or less is timely)

                        Source: OIG using FBS data




VA Office of Inspector General                                                                                                       4
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


Required            EAFH made 12 misuse determinations from March 2012 through
Beneficiary         April 2013, concluding fiduciaries misused approximately $944,000 of
Protections
Need To Be
                    beneficiary funds. We found required actions in response to identifying
Completed           misuse of funds, such as replacing the fiduciary or requesting repayment
                    from former fiduciaries, were not completed or completed timely by EAFH.

                    		 For 5 of the 12 cases where EAFH determined misuse of funds occurred,
                        it took EAFH an average of 98 days from the date the allegation was
                        received to replace the five fiduciaries (ranging from 72-175 days). For
                        the remaining seven determinations, three fiduciaries were replaced
                        timely, three beneficiaries passed away prior to the hub receiving the
                        allegation, and one was an allegation against a previously replaced
                        fiduciary.
                    		 We found evidence that only 8 of 12 misuse determinations were sent to
                        P&FS for negligence reviews. However, a senior P&FS official stated
                        they did not conduct the required reviews to determine if VBA was
                        negligent in its oversight of the fiduciaries.
                    		 For 9 of 12 misuse determinations, repayment was not requested from
                        former fiduciaries by EAFH as required.
                    		 For 11 of 12 misuse determinations, EAFH did not determine whether a
                        request for funds reissuance should have been made before sending
                        misuse determinations to P&FS for negligence reviews, as required by
                        VBA policy.

                    EAFH management stated the consolidation of fiduciary operations
                    necessitated establishing priorities for the increase in workload.
                    Management focused resources primarily on other program activities, such
                    as accountings, due to insufficient staff. In addition, a lack of management
                    oversight contributed to EAFH not timely resolving allegations of misuse of
                    beneficiary funds.

                    In July 2013, EAFH management told us they had established a “Tiger
                    Team” of seven full-time staff to reduce the pending allegations of misuse.
                    According to P&FS reports, EAFH reduced pending allegations of misuse of
                    beneficiary funds from more than 100 cases in April 2013 to 38 in
                    October 2013. In February 2014, P&FS also stated it initiated negligence
                    reviews of the 12 misuse determinations.

                    Because timely action was not consistently taken by EAFH to address
                    allegations of misuse, beneficiary funds are at risk of being misused. As a
                    result, VA may be responsible for restitution of approximately $944,000 to
                    the 12 affected beneficiaries.




VA Office of Inspector General                                                                    5
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                    Recommendations

                    1.		 We recommended the Under Secretary for Benefits require the Eastern
                         Area Fiduciary Hub to implement controls to monitor misuse
                         determinations to ensure reviews meet timeliness standards.
                    2.		 We recommended the Under Secretary for Benefits require the Director
                         of Pension and Fiduciary Service to implement controls to monitor
                         negligence reviews.
                    3.		 We recommended the Under Secretary for Benefits implement controls
                         to ensure the reissuance of misused funds to beneficiaries and repayment
                         from former fiduciaries occurs timely.
                    4.		 We recommended the Under Secretary for Benefits require the Director
                         of Pension and Fiduciary Services to conduct a negligence review of the
                         12 identified cases of misuse of beneficiary funds and determine if
                         misused funds are required to be reissued to affected beneficiaries.

Management          In response to our draft report, the Under Secretary for Benefits agreed with
Comments            our conclusion that the hotline allegation concerning misuse cases was
and OIG
Response
                    substantiated, and noted that actions were underway to address our concerns.
                    The Under Secretary also included a series of technical comments, which we
                    incorporated as appropriate into the report. The Under Secretary
                    acknowledged that required negligence determinations had not been
                    completed at the time of OIG’s review, and stated 11 of the 12 negligence
                    determinations are now complete. The remaining case did not require a
                    negligence determination.

                    Additionally, the Under Secretary stated that it was not the responsibility of
                    EAFH to make the determination that funds should be reissued in cases
                    requiring a P&FS determination of negligence. Also, the Under Secretary
                    stated that it was advised by the OIG’s Office of Investigations (OI) to stop
                    processing certain misuse cases to avoid jeopardizing OIG’s criminal
                    investigations, which impacted timely resolution of misuse cases.

                    We acknowledge EAFH took some required actions timely, although other
                    actions, as detailed in our report, were not. For example, EAFH did not
                    remove 5 of 12 fiduciaries timely, although EAFH had determined that funds
                    managed by these fiduciaries had been misused. We discussed with EAFH
                    and VBA officials the 12 cases where it was determined misuse had occurred
                    multiple times prior to the issuance of the draft report. Despite being told
                    that required negligence reviews had not been conducted, VBA did not
                    conduct reviews until recently. All of these negligence reviews were related
                    to allegations that, by March 2014, were more than a year old. Therefore, by
                    VBA not taking all required steps timely, beneficiary estates were placed at
                    unnecessary risk of further misuse.



VA Office of Inspector General                                                                    6
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                    We updated the statement in the report to provide additional clarity in
                    response to the Under Secretary’s comments regarding EAFH
                    responsibilities for determining reissuance of misused funds. Under VBA
                    policy, the hub should have determined if reissuance of funds was required
                    without a negligence review by P&FS and, if not, requested reissuance of
                    funds directly from the Fiscal Activity. This did not occur.

                    Furthermore, the Under Secretary’s contention that OIG criminal
                    investigations concerning the 12 cases in question prevented timely
                    completion of some required VBA steps in cases is not correct in all but one
                    case. OI officials stated that OIG criminal investigations generally should
                    not impact or prevent internal administrative processing of cases where VBA
                    determined misuse of funds occurred. OI did not instruct VBA officials to
                    withhold reissuance of funds to beneficiaries or wait to conduct any other
                    required work, with one exception. In this one case, OI officials stated that
                    VBA was instructed to not attempt to obtain repayment of funds from the
                    fiduciary in question until after completion of the criminal investigation.

                    The Under Secretary for Benefits concurred with Recommendations
                    1 through 4. An acceptable action plan was provided for Recommendation
                    1 and we, therefore, consider the recommendation closed. The Under
                    Secretary also concurred with Recommendations 2 and 3 and requested
                    closure based on actions already taken by VBA. However, regarding
                    Recommendation 2, we will assess the adequacy of the August 2013 policy
                    during our recently initiated national audit of Fiduciary Program controls
                    concerning misuse of beneficiary funds. Once we have completed this audit,
                    we will be in a better position to assess the extent that controls, particularly
                    related to P&FS completing negligence reviews, in some cases refunding
                    misused funds to beneficiaries, are working.

                    Also, although VBA’s response to Recommendation 3 addresses repayment
                    from former fiduciaries, it does not address the reissuance of misused funds
                    to beneficiaries, which according to VBA policy should occur when VBA
                    determines misuse or negligence in its oversight of the fiduciary. We also
                    consider Recommendation 4 open until VBA provides copies of the
                    negligence reviews that VBA recently conducted in the 12 identified cases.




VA Office of Inspector General                                                                    7
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


Allegation 2        EAFH Had a Significant Backlog of Pending Field
                    Examinations

Assessment          We substantiated the allegation that EAFH had a large backlog of pending
                    field examinations by identifying more than 11,000 (69 percent) of
                    16,000 pending field examinations exceeded VBA timeliness standards.

Criteria            Field examinations consist of Initial Appointments (IA) and
                    Fiduciary-Beneficiary (F-B) examinations. An IA field examination assesses
                    the competency and welfare of the beneficiary and, if needed, the
                    appointment of a fiduciary to receive VA benefits. VBA policy requires
                    program staff to complete IA field examinations within 45 days of the receipt
                    of a request for appointment of a fiduciary.

                    Subsequent to an IA field examination, program staff conduct F-B field
                    examinations periodically to reassess the welfare of the beneficiary and the
                    continued suitability of the fiduciary. VBA policy requires program staff to
                    complete F-B field examinations within 120 days of the scheduled due date.

What We Did         To address these allegations, we analyzed P&FS records for outstanding field
                    examinations from March 2012 through August 2013. We identified field
                    examinations that exceeded VBA timeliness standards and reviewed Field
                    Examiner monthly field examination completion records.

Backlog of          In March 2012, there were approximately 12,000 field examinations
Field               pending, which included a backlog of approximately 7,000 field
Examinations
                    examinations that exceeded VBA timeliness standards. In December 2012,
                    field examinations pending peaked at over 18,000, which included a backlog
                    of approximately 12,800, comprised of about 4,900 IA and 7,900 F-B field
                    examinations.

                    In January 2013, EAFH implemented a plan to address the backlog by giving
                    priority to IA field examinations to ensure the timely delivery of VA
                    benefits. The plan called for eliminating the backlog of IA field
                    examinations before focusing on the backlog of F-B field examinations.

                    In May 2013, there were more than 16,000 pending field examinations,
                    which included a backlog of more than 11,000 examinations. By EAFH
                    focusing their efforts on eliminating the backlog of IA field examinations,
                    they were able to reduce the IA field examination backlog to approximately
                    1,600 in August 2013. However, the backlog of F-B field examinations
                    increased to approximately 9,900 F-Bs, for a total backlog of
                    approximately 11,500.




VA Office of Inspector General                                                                    8
                                                          Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                    Figure 3 provides the total pending field examinations and the backlog of IA
                    and F-B field examinations for the period March 2012 through August 2013.

                     Figure 3. Pending EAFH Field Examinations from March 2012 through
                                                August 2013

                                                      20,000
                                                      18,000
                                 Field Examinations   16,000
                                                      14,000
                                                      12,000
                                                      10,000
                                                       8,000
                                                       6,000
                                                       4,000
                                                       2,000
                                                              0




                                                                                                Month
                                                                  IA Backlog          F-B Backlog          IAs and F-Bs Pending

                     Source: OIG using P&FS Daily Fiduciary Reports

                    As shown in Figure 4, based on the rate of reduction since
                    December 2012, EAFH’s plan to eliminate the backlog of approximately
                    11,500 field examinations could take approximately 4 years.

                            Figure 4. Projection of EAFH Field Examinations Backlog from
                                                  2013 through 2017

                                              12,000
                        Field Examinations




                                              10,000

                                                      8,000

                                                      6,000                                                              IA Backlog
                                                      4,000                                                              F-B Backlog
                                                      2,000

                                                         0
                                                                    2013       2014      2015       2016     2017
                                                                                        Year
                      Source: OIG using P&FS Daily Fiduciary Reports

                    EAFH management stated the backlog was primarily caused by a large
                    backlog of untimely field examinations and inadequate staffing at the time of



VA Office of Inspector General                                                                                                         9
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                    consolidation in March 2012. In August 2012, EAFH management
                    completed a workload analysis identifying a need for an additional 61 Field
                    Examiners to eliminate the backlog within 24 months. In June 2013, EAFH
                    reported having seven additional Field Examiners. In addition, EAFH
                    management stated the VBA Office of Field Operations had approved
                    another four Field Examiner positions in August 2013. Despite the increase
                    of 11 Field Examiners since August 2012, the backlog of field examinations
                    will likely persist and the general health and well-being of beneficiaries is at
                    increased risk.

                    Recommendation

                    5.		 We recommended the Under Secretary for Benefits ensures the Eastern
                         Area Fiduciary Hub implements a plan to expedite completion of their
                         backlog of field examinations to meet performance standards.

Management          In response to our draft report, the Under Secretary for Benefits concurred
Comments            with our recommendation concerning the field examination backlog. The
and OIG
Response
                    Under Secretary stated the EAFH implemented a plan to reduce the backlog
                    of field examinations in January 2013, and this plan was modified in
                    March 2014.

                    The Under Secretary also included a series of technical comments on the
                    field examination section of our report. Specifically, the Under Secretary
                    commented that EAFH created a forecast model showing the completion of
                    the backlog of field examinations by the end of FY 2015, which was
                    provided to the OIG prior to receipt of the draft report. VBA also
                    commented that the OIG Field Examiner staffing level information is
                    misleading and that staffing at EAFH has increased significantly and should
                    allow EAFH to eliminate any backlog by FY 2015.

                    In March 2014, VBA provided us a forecasting model for eliminating the
                    EAFH’s field examination backlog. However, the data provided does not
                    show that the backlog will be eliminated by the end of FY 2015. Instead, the
                    data indicates EAFH could still have a backlog of approximately 4,400 F-B
                    examinations at the end of FY 2015.

                    Also, the report indicates that EAFH only received an additional 11 Field
                    Examiners, in spite of EAFH concluding that an additional 61 Field
                    Examiners were needed to eliminate the backlog within 2 years. Regarding
                    EAFH receiving authorization to hire additional Field Examiners since
                    August 2013, the increase in staff should aid in reducing the EAFH’s
                    existing backlog.

                    Although the Under Secretary for Benefits concurred with
                    Recommendation 5 and submitted EAFH’s plan to eliminate the backlog by
                    the end of FY 2015, the plan provided projects a continuing backlog of


VA Office of Inspector General                                                                   10
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                    approximately 4,400 F-B field examinations at the end of FY 2015.
                    Accordingly, this recommendation will remain open until VBA provides a
                    plan to eliminate EAFH’s backlog of IA and F-B field examinations.




VA Office of Inspector General                                                                   11
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


Allegation 3        Some EAFH Incoming Mail Is Not Processed Timely

Assessment          We substantiated the allegation that some incoming mail received by
                    EAFH’s Special Operations Team had not been reviewed and processed
                    timely. During our onsite work in June 2013, we identified more than
                    3,200 pieces of mail that had yet to be processed by EAFH and exceeded the
                    hub’s timeliness standards. Mail not processed timely included allegations
                    of misuse of beneficiary funds, competency restoration requests, and
                    retroactive payment requests. Delays in processing the 3,200 pieces of mail
                    ranged from 11 to 486 workdays, with an average of 30 workdays from the
                    time EAFH received the mail. By not effectively managing incoming mail,
                    those receiving VA benefits may be affected.

Mail Process        Mail and other correspondence needing EAFH attention is received, opened,
and Criteria        and date stamped at the Indianapolis VARO and then delivered to the EAFH
                    daily. Once at the EAFH, the correspondence is forwarded to the various
                    teams within the EAFH, including the Special Operations Team, for
                    processing. Mail received by the Special Operations team can include items
                    such as requests by beneficiaries to reevaluate their competency status, court
                    documents, requests for change of address or direct deposit of funds, and
                    award actions generated by VA Regional Offices.

                    VBA policy requires Fiduciary Program staff to review all correspondence in
                    conjunction with the fiduciary folder and provide a response, if necessary,
                    generally within 10 workdays of receipt. EAFH has a local goal of
                    processing incoming mail within 5 days of receipt. VBA policy requires
                    Fiduciary Program staff to address allegations of misuse of beneficiary funds
                    to determine if an investigation is warranted within 14 days of receipt of the
                    allegation.

What We Did         To address whether there was a backlog of incoming mail, we conducted an
                    unannounced site visit to EAFH in June 2013. We identified over
                    3,200 pieces of unprocessed mail and other correspondence documents in
                    piles on desks and shelves located in the Special Operations Team area.
                    Some of these documents were organized by date into rubber band bound
                    piles. While onsite we gathered, reviewed, and categorized these documents
                    into various categories.

Incoming Mail       In June 2013, we identified over 3,200 pieces of mail that had not been
Processing          processed timely by EAFH, such as allegations of misuse of beneficiary
Backlog
                    funds, competency restoration requests, and requests for retroactive
                    payments. Delays in processing mail ranged from 11 to 486 workdays, with
                    an average of 30 workdays from the time mail was received at EAFH. The
                    following are examples of types of mail that we found unprocessed that
                    exceeded the processing goal of 10 workdays:




VA Office of Inspector General                                                                   12
                                  Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                    		 Ten allegations of misuse of funds by fiduciaries that had been received
                        by mail, but had yet to be reviewed by EAFH staff. Delays in processing
                        these allegations ranged from 14 to 45 workdays averaging 32 days.
                    		 Thirty-two requests from beneficiaries to have their competency status
                        restored, some requests included supporting medical evidence. Delays in
                        processing these requests ranged from 11 to 64 workdays averaging
                        28 days.
                    		 Forty beneficiary requests for previously approved retroactive payments
                        that EAFH had not processed. Delays in processing these requests
                        ranged from 11 to 48 workdays, averaging 30 days.

                    The table below categorizes EAFH’s mail backlog by type of unprocessed
                    mail at the time of our review in June 2013. The OIG team separated the
                    types of correspondence listed below into categories for easier identification
                    and cataloging purposes. The types are not official categories of mail used
                    by EAFH to identify or prioritize their pending workload. In the absence of
                    VBA official categories, this classification facilitated our analysis.

                                            Table 1. EAFH Unprocessed Mail
                                                                            Range of        Average
                              Type of Correspondence          Total          Delay           Delay
                                                                            ( in days)        (in days)
                      Award Actions                           1,509           11-83             34
                      Address or Direct Deposit Changes        560            11-203            21
                      Fiduciary Establishment or Changes       258            11-70             28
                      Court Documents                          203            11-167            28
                      Other                                    175            11-90             28
                      Bond Receipts                            109            12-174            28
                      Request or Approval of Expenses          109            12-80             31
                      Accounting Related                       102            11-486            33
                      Notice of Death/Probate Inquiries        56             11-94             26
                      Medicaid Award Adjustments               47             11-71             32
                      Request for Retroactive Benefits         40             11-48             30
                      Requests for Competency                  32             11-64             28

                      Referral to VA Regional Office           19             11-78             30
                      Requests for Incompetency                16             11-44             26
                      Determinations
                      Misuse Allegations                       10             14-45             32
                        Total                                 3,245           11-486            30
                      Source: VA OIG analysis of unprocessed correspondence pending over 10 workdays at
                      EAFH



VA Office of Inspector General                                                                            13
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                    The backlog of mail occurred because EAFH management stated it focused
                    on other program priorities, such as accountings. Staff turnover and
                    shortages also contributed to the backlog of unprocessed mail.

                    Since our review in June 2013, EAFH management indicated it has taken the
                    following actions to reduce the backlog of mail:

                    		 Sorted mail into more specific categories for easier processing.
                    		 Redistributed mail to other teams for processing.
                    		 Began a daily mail counting process in order to identify trends and
                        strategically process mail.
                    		 Reallocated staff from the scanning team to assist with the mail backlog.

                    By September 2013, EAFH reported a backlog of approximately 900 pieces
                    of unprocessed mail. This backlog is still considered significant, and without
                    effective management of incoming mail, EAFH cannot ensure that benefits
                    are not affected or subject to risk of theft or misuse by fiduciaries.

                    Recommendation
                    6.		 We recommended the Under Secretary for Benefits require the Director
                         of the Indianapolis VA Regional Office to implement a plan to ensure the
                         Eastern Area Fiduciary Hub eliminates its backlog of Fiduciary Program
                         mail during FY 2014.

Management          In response to our draft report, the Under Secretary for Benefits concurred
Comments            with our recommendation. The Under Secretary stated the EAFH refined
and OIG
Response
                    procedures to process incoming mail into the hub based on the date it is first
                    received at a VBA facility.

                    The Under Secretary also included a series of technical comments on the
                    mail processing section of our report. Specifically, VBA requested
                    clarification on the piece of mail that we determined was 486 business days
                    old, stating that it was an internal document unrelated to the delivery of
                    benefits to a veteran. In addition, the Under Secretary stated that the way the
                    OIG described the location and storage of the unprocessed mail and
                    correspondence at the EAFH depicted an unorganized process. The Under
                    Secretary also stated the OIG incorrectly reported a backlog of
                    approximately 900 pieces of mail, when, in fact, all mail had been screened
                    and prioritized for action as of September 30, 2013.

                    We agree that VBA took actions to address our concerns about
                    correspondence handling at the EAFH. The reduction of the backlog from
                    more than 3,200 pieces of pending correspondence identified in June 2013 to
                    approximately 900 pieces as of September 30, 2013, indicated the effect of
                    actions taken by the EAFH to address the mail backlog.


VA Office of Inspector General                                                                   14
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                    The Under Secretary’s response concerning a single piece of mail not
                    processed in 486 business days is not correct. The document is a court copy
                    of an approved final accounting that, at the time of our fieldwork, was
                    included in mail EAFH management had not distributed for review and
                    possible action. Therefore, we reported the 486 business days elapsed since
                    receipt without action taken.

                    Also, our intent was not to depict the mail awaiting review and action as
                    disorganized. The review team noted that some mail was grouped by the
                    date it was received at the EAFH. However, other mail was in unmarked and
                    undated stacks in these same areas.

                    In addition, the Under Secretary’s response indicated that approximately
                    900 pieces of mail they reported as of September 30, 2013, did not indicate a
                    backlog, and that these pieces were screened and prioritized for action.
                    However, information provided to OIG during our review contradicts this
                    statement and, instead, indicated this mail had not been processed within the
                    10-workday timeliness standard at the EAFH as of that date. This
                    information was used in the report to illustrate that, although the backlog was
                    still significant as of September 30, 2013, EAFH had made significant strides
                    in reducing the mail backlog.

                    The Under Secretary for Benefits concurred with Recommendation 6 and
                    requested closure, based on actions already taken.    However, this
                    recommendation will remain open until VBA provides documentation
                    showing EAFH has eliminated its mail backlog.




VA Office of Inspector General                                                                   15
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


Appendix A          Scope and Methodology

                    We conducted our review from June 2013 through January 2014 at the
                    Eastern Area Fiduciary Hub in Indianapolis, IN. We assessed the merits of
                    complaints received in May 2013, concerning processing allegations of
                    misuse of beneficiary funds, field examinations, and incoming mail.

                    We reviewed applicable regulations, policies and procedures, and
                    interviewed EAFH management and staff. In addition, we analyzed FBS
                    data for allegations of misuse of beneficiary funds, analyzed P&FS data for
                    field examinations, and collected and categorized unprocessed EAFH mail.

Fraud               We assessed risks applicable to legal and regulatory violations, fraud, and
Detection           abuse occurring within the context of our project objectives. Specifically, we
                    identified and reviewed laws, regulations and provisions considered
                    significant to our project objectives. We also obtained an understanding of
                    our review area and designed steps and procedures germane to obtaining
                    reasonable assurance of program compliance or noncompliance specific to
                    our review. As a result of our review of EAFH’s processing of allegations of
                    misuse between March 2012 and April 2013, we identified 12 cases where
                    EAFH determined that fiduciaries misused approximately $944,000 of
                    beneficiary funds. We found EAFH did not timely complete required actions
                    once it determined fiduciaries misused beneficiary funds.

Data Reliability    To test the reliability of data, we used information from the Virtual VA
                    System to validate 30 allegations of misuse of beneficiary funds recorded in
                    FBS. In addition, we verified a random sample of 15 IA field examinations
                    and 15 F-B field examinations to supporting documentation in other VA
                    information systems.

                    We believe the computer-generated data are sufficiently reliable as indicators
                    of the accuracy of the number of pending IA and F-B field examinations
                    reported on the P&FS website. We also believe the computer-generated data
                    are sufficiently reliable as indicators of the accuracy of allegations of
                    beneficiary funds misuse reported in FBS.                We consider the
                    computer-processed data to be sufficiently reliable to support the review
                    objective, our conclusions, and recommendations concerning management
                    controls.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           review objectives. We conducted this review in accordance with the Council
                    of the Inspectors General on Integrity and Efficiency Quality Standards for
                    Inspection and Evaluation. These standards require that we plan and
                    perform the audit to obtain sufficient, competent, and relevant evidence to
                    provide a reasonable basis for our findings, conclusions, and
                    recommendations based on our review objective. We believe that the



VA Office of Inspector General                                                                   16
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our review objectives.




VA Office of Inspector General                                                                   17
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


Appendix B            Potential Monetary Benefits in Accordance With
                      Inspector General Act Amendments



                                                                       Better Use      Questioned
      Recommendation              Explanation of Benefits
                                                                        of Funds         Costs




                                  Reissue misused funds to
                  4               beneficiaries                         $944,000              $0




                                                          Total:        $944,000              $0




VA Office of Inspector General                                                                     18
                                   Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


Appendix C           Under Secretary for Benefits Comments



                 Department of                                    Memorandum
                 Veterans Affairs

         Date:    April 11, 2014

         From:    Under Secretary for Benefits (20)

         Subj:    OIG Draft Report—Review of Alleged Mismanagement at VBA’s Eastern Area
                  Fiduciary Hub-VAIQ7453093

           To:    Assistant Inspector General for Audits and Evaluations (52)


                  1. Attached is VBA’s response to the OIG’s Draft Report: Review of Alleged
                  Mismanagement at VBA’s Eastern Area Fiduciary Hub.

                  2. Questions may be referred to Christopher Denno, Program Analyst, At 461-9125.




                  Attachment




VA Office of Inspector General                                                                       19
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


                                                                                                 Attachment

                              Veterans Benefits Administration (VBA)


                                  Comments on OIG Draft Report


              Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub 


The Veterans Benefits Administration provides the following comments:


Effective March 1, 2012, VBA completed the consolidation of fiduciary activities to the Eastern Area
Fiduciary Hub (EAFH). This consolidation was based on a 2009 pilot project under which VBA
consolidated 14 of its fiduciary activities into the Western Area Fiduciary Hub. Based upon the pilot
results, VBA deployed the hub concept nationwide, with consolidation of fiduciary activities to regional
offices in Columbia, Indianapolis, Lincoln, Louisville, and Milwaukee. We undertook this national initiative
to improve service delivery, more efficiently utilize our resources, and enhance the consistency and
quality of services to our most vulnerable population of Veterans and their families.
The Office of Inspector General’s (OIG) review occurred only one year and two months after the
consolidation of all fiduciary work in the Eastern Area to the Indianapolis Regional Office (RO). At the
time of this review, the Eastern Area Fiduciary Hub had implemented a 2-year plan to reach all VBA
assigned targets. At the initiation of this review, VBA requested the OIG review the allegations and
provide context regarding the consolidation timeline of the fiduciary hubs. VBA believes this is important
context that was omitted from the report.
It is important to note that during consolidation, EAFH assumed responsibility for all beneficiaries in the
Eastern Area, which includes 14 states with 16 prior separate RO jurisdictions. All active work items,
Principal Guardianship Files (PGFs), and related mail and documentation were received from all of these
separate VBA facilities and two Pension Management Centers. EAFH sent correspondence to all
beneficiaries, fiduciaries, and congressional stakeholders, making them aware of this change, which
resulted in an increased volume of calls and incoming mail. Each fiduciary hub set up an in-house phone
unit that specializes in addressing the needs of the beneficiaries and fiduciaries.
In summary, VBA has placed high priority and focus on improving and enhancing our delivery of benefits
to Veterans. VBA generally agrees with OIG’s findings from their review of the hotline allegations.
Actions to address most of the areas identified by the OIG have been completed.
VBA provides the following technical comments:
Page i, third paragraph, last sentence:
       “Without effective management of incoming mail, VBA benefits may be affected.”
       VBA Comment: The issue is not with the EAFH management of the incoming mail but with the
       way in which mail is deemed timely or untimely. The EAFH previously utilized an internal date
       stamp to prioritize mail, oldest to newest. During the OIG review, the EAFH was notified to begin
       processing mail using the date stamp from first arriving in any VBA facility. Therefore, when a
       piece of mail is received by another RO it must be rerouted to the EAFH and may already be
       outside of the timeliness standard. Despite receiving notification of the consolidation, beneficiaries
       and fiduciaries often send correspondence to the prior RO of jurisdiction.
Page 1, paragraph 3, second sentence:
       “According to a senior VBA official, VBA completed consolidating all 58 VA Regional Offices’
       fiduciary operations into 7 regional “hubs” by March 2012.”
       VBA Comment: There are 56 regional offices in the country with 6 fiduciary hubs. The Manila RO
       is not considered a hub; however, it does have fiduciary employees.
Page 2, first paragraph, fifth sentence:
       “However, EAFH did not timely complete required actions in response to identifying misuse of
       funds, such as replacing the fiduciary or requesting repayment from former fiduciaries.”


VA Office of Inspector General                                                                            20
                                  Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


       VBA Comment: This is not entirely true. The EAFH prevented further misuse for 11 of the 12
       beneficiaries within 60 days from the first identification of misuse.
Page 5, second bullet, second sentence:
       “However, a senior P&FS official advised they did not conduct the required reviews to determine if
       VBA was negligent in its oversight of the fiduciaries.”
       VBA Comment: This should be corrected to state that the required reviews were not completed at
       the time of OIG’s review. However, 11 of the 12 negligence determinations are now complete and
       the remaining case did not require a negligence determination.
Page 5, fourth bullet:
       “For 11 of 12 misuse determinations, EAFH did not determine if VBA is required to reissue
       misused funds.”
       VBA Comment: It is not the responsibility of EAFH to make the determination that funds can be
       reissued in cases requiring a Pension and Fiduciary Service determination of negligence.
Page 5, paragraph two, last sentence:
       “In addition, a lack of management oversight contributed to EAFH not timely resolving allegations
       of misuse of beneficiary funds.”
       VBA Comment: It’s important to note that at the time of OIG’s review, EAFH was relying on the
       OIG investigative unit to verify if the allegations were to be considered criminal. In some cases,
       OIG directed EAFH to stop processing misuse cases to avoid jeopardizing the OIG criminal
       investigation. This impacts timely resolution of misuse cases.
Page 7, sixth paragraph, first sentence:
       “In January 2013, EAFH implemented a plan to address the backlog by giving priority to IA field
       examinations, which management deemed more critical than F-B field examinations to ensure the
       timely delivery of VA benefits.”
       VBA Comment: The EAFH did not deem the Initial Appointment (IA) field examinations more
       critical. The IAs were prioritized due to the fact that they delivered a monetary benefit to the
       Veteran. EAFH sees all Veteran field examinations as important and critical to complete in a
       timely manner.
Page 8, caption for figure 4 & figure 4:
       “As shown in Figure 4, based on the rate of reduction since December 2012, EAFH’s plan to
       eliminate the backlog of approximately 11,500 field examinations could take approximately 4
       years.”
       VBA Comment: The plan referenced above is based on the assumption that it takes the same
       amount of time to complete a Fiduciary-Beneficiary (F-B) examination as it does an IA. EAFH
       created a forecast model for the completion of the backlog of all field examinations by the end of
       fiscal year (FY) 2015 by using the Fiduciary Beneficiary System (FBS) G15W timeliness report.
       This model also includes simulating average receipts, completion rates, and assumptions
       (overtime, travel funds, etc.). The forecast assumptions and projections were provided to OIG
       prior to receipt of the draft report.
Page 9, first paragraph, second through fourth sentences:
       “In August 2012, EAFH management completed a workload analysis identifying a need for an
       additional 61 Field Examiners to eliminate the backlog within 24 months. In June 2013, EAFH
       reported having 7 additional Field Examiners. In addition, EAFH management advised VBA Office
       of Field Operations had approved another four Field Examiner positions in August 2013.”
       VBA Comment: This is misleading. The numbers above do not accurately reflect the staffing of
       the EAFH. During the process of consolidation, the EAFH was allocated a total of 196 FTE and as



VA Office of Inspector General                                                                        21
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


       of November 2011, had 16 Field Examiners on board. By March 2012, the number of Field
       Examiners on board increased to 83. As of March 2013, EAFH was allocated a total of 216 FTE
       and had 109 Field Examiners on board. As of March 25, 2014, the EAFH was allocated a total of
       229 FTE and had 110 Field Examiners on board, with ten more to be hired before the end of FY
       2014.
Page 9, first paragraph, last sentence:
       “Despite the increase of 11 Field Examiners since August 2012, the backlog of field examinations
       will likely persist and the general health and well-being of beneficiaries is at increased risk.”
       VBA Comment: EAFH started with 83 Field Examiners at the time of consolidation and are
       currently hiring to reach a total of 120, a 45 percent increase in the number of Field Examiners
       from post-consolidation to currently on board. At the time of the OIG review, the number of
       authorized Field Examiners had increased by 33, which is a 40 percent increase from the time of
       consolidation. This significant increase in Field Examiner staffing will enable the EAFH to
       eliminate any backlog of field examinations by the end of FY 2015, reducing the risk to
       beneficiaries.
Page 10, first paragraph, fourth sentence:
       “Delays in processing the 3,200 pieces of mail ranged from 11 to 486 workdays, with an average
       of 30 workdays from the time EAFH received the mail.”
       VBA Comment: VBA requested clarification on the piece of mail that was determined to be 486
       days old. This piece of mail was an internal document and was not related to the delivery of
       benefits for any Veteran. Since OIG was unable to provide clarification, VBA believes the mail
       identified as 486 days old should be removed.
Page 10, first paragraph, last sentence:
       “By not effectively managing incoming mail, VBA benefits may be affected.”
       VBA Comment: As stated above, the issue is not with the EAFH management of the incoming
       mail but with the way in which mail is deemed timely or untimely. The EAFH previously utilized an
       internal date stamp to prioritize mail oldest to newest from date of receipt in the EAFH. During the
       OIG review, EAFH was notified to begin processing mail using the date stamp from first arriving in
       any VBA facility. Consequently, when a piece of mail is received in another RO first, it may
       already be outside the timeliness standards when received by EAFH.
Page 10, fourth paragraph, second sentence:
       “We identified over 3,200 pieces of unprocessed mail and other correspondence documents in
       piles on desks and shelves located in the Special Operations Team area. Some of these
       documents were organized into rubber band bound piles.”
       VBA Comment: At the time of the OIG review, the EAFH was in swing space while their
       permanent space at the RO was being renovated. The space provided to EAFH did not have an
       area specifically designed to process incoming mail. EAFH used existing cubicles, desks, and
       shelves to sort and store mail. The sorted mail was grouped by the date the mail was received in
       the hub. By describing the mail as being in piles and on shelves, this is depicting an unorganized
       process, which is not accurate.
Page 11, EAFH Unprocessed Mail Table:
       “Accounting Related”
       VBA Comment: As stated previously, VBA requested clarification on the piece of mail that OIG
       identified as 486 days old. OIG indicated this was “Accounting Related.” VBA disagrees with this
       categorization as we do not identify mail in this way. VBA believes this piece of mail was an
       internal document and was not related to the delivery of benefits for any Veteran. Since OIG was
       unable to provide clarification, VBA believes the mail identified as 486 days old should be




VA Office of Inspector General                                                                          22
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


       removed and the Accounting Related Total, Range of Delay (Days), and Average Delay (Days),
       adjusted accordingly.
Page 12, third paragraph:
       “By September 2013, EAFH reported a backlog of approximately 900 pieces of unprocessed mail.
       This backlog is still considered significant, and without effective management of incoming mail,
       EAFH cannot ensure that benefits are not affected or subject to risk of theft or misuse by
       fiduciaries.”
       VBA Comment: EAFH reported having 902 pieces of mail as of September 30, 2013, but did not
       indicate this was a backlog. All 902 pieces were screened and prioritized for action. After the OIG
       review, EAFH further improved procedures for prioritizing and completing actionable mail items.
       VBA strives to serve VA's most vulnerable population through providing timely delivery of benefits.
Page 13, third paragraph, last sentence:
       “We referred these 12 cases to our Office of Investigations in January 2014.”
       VBA Comment: EAFH has an established relationship with OIG investigators. These cases had
       already been referred to the OIG Office of Investigations and in some cases, OIG requested EAFH
       not contact the fiduciary due to OIG’s ongoing investigation.
The following comments are submitted in response to the recommendations in the OIG draft
report:
Recommendation 1: We recommend the Under Secretary for Benefits require the Eastern Area Fiduciary
Hub to implement controls to monitor misuse determinations to ensure reviews meet timeliness
standards.
       VBA Response: Concur. EAFH has worked with the Pension and Fiduciary Service to implement
       additional control measures to ensure that misuse determinations and repayment of funds are
       completed within the timeliness standards.
       Additional controls are being established in the new Beneficiary Fiduciary Field System (BFFS) to
       monitor the fiduciary misuse process at the fiduciary hubs. BFFS incorporates a misuse case
       management system to monitor the misuse process from allegation through determination. This
       includes notifying the RO Support Services Division (SSD) of the need to establish a debt against
       a fiduciary who misused benefit funds and to monitor repayment of the debt. These BFFS
       controls and processes will be in place by the end of June 2014.
       Target Completion Date: June 30, 2014
Recommendation 2: We recommend the Under Secretary for Benefits require the Director of Pension
and Fiduciary Service to implement controls to monitor negligence reviews.
       VBA Response: Concur. On August 12, 2013, Pension and Fiduciary Service implemented
       controls to monitor negligence determinations through the release of 21PF Circular 13-2,
       Negligence Determinations. This circular provides the procedure used by Pension and Fiduciary
       Service to determine whether VA must reissue benefits to a beneficiary in the Fiduciary Program
       based upon VA negligence in appointing or overseeing the beneficiary’s fiduciary. Pension and
       Fiduciary Service provided this circular to OIG on February 14, 2014, during the course of the
       audit. VBA requests closure of this recommendation.
Recommendation 3: We recommend the Under Secretary for Benefits implement controls to ensure the
reissuance of misused funds to beneficiaries and repayment from former fiduciaries occurs timely.
       VBA Response: Concur. In November 2013, VBA implemented new procedures (VBA Fiduciary
       Misuse Debt Processes) for establishing a debt, sending collection letters to the debtor, collecting
       payments, processing compromise requests, and reconciling accounts receivable when VBA
       determines that a fiduciary misused benefits. In addition, VBA revised the benefit module in the
       Centralized Administrative Accounting Transaction System (CAATS) to assign a unique fiduciary
       indicator within the transaction billing document (BD transaction) so fiduciary debts can be tracked



VA Office of Inspector General                                                                          23
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


       in both CAATS and the Financial Management System. Pension and Fiduciary Service provided
       the new procedures to OIG on February 14, 2014, during the course of the audit. VBA requests
       closure of this recommendation.
Recommendation 4: We recommend the Under Secretary for Benefits require the Director of Pension
and Fiduciary Service to conduct a negligence review of the 12 identified cases of misuse of beneficiary
funds and determine if misused funds are required to be reissued to affected beneficiaries.
       VBA Response: Concur. Pension and Fiduciary Service completed negligence determinations in
       the 12 identified cases. VBA requests closure of this recommendation.
Recommendation 5: We recommend the Under Secretary for Benefits ensures the Eastern Area
Fiduciary Hub implements a plan to expedite completion of their backlog of field examinations and to
meet performance standards.
       VBA Response: Concur. EAFH has implemented a work plan that will allow Field Examiners to
       maintain their timeliness in completing IA field examinations while also working on the F-B field
       examinations from oldest to newest. The EAFH implemented a plan to reduce the backlog of field
       examinations in January 2013, and this plan was modified in March 2014. Implementation of the
       items outlined in the forecast model that was provided to OIG in March 2014, will allow EAFH to
       expedite completion of the backlog of field examinations by the end of FY 2015. VBA requests
       closure of this recommendation.
Recommendation 6: We recommend the Under Secretary for Benefits require the Director of the
Indianapolis VA Regional Office to implement a plan to ensure the Eastern Area Fiduciary Hub eliminates
its backlog of Fiduciary Program mail during FY 2014.
       VBA Response: Concur. EAFH refined procedures to process all incoming mail into the hub.
       This process was implemented during the OIG review. The mail is now processed based on the
       date stamp reflecting initial receipt at the first VBA facility. As of March 24, 2014, the EAFH has
       729 pieces of pending mail, none of which is backlogged. VBA requests closure of this
       recommendation.




VA Office of Inspector General                                                                         24
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


Appendix D          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	                 For more information about this report, please
                                                    contact the Office of Inspector General at
                                                    (202) 461-4720.

                      Acknowledgments		             Timothy Crowe, Director
                                                    Kristine Abramo
                                                    Ed Akitomo
                                                    Bridget Byrd
                                                    Dennis Capps
                                                    Charles Chiarenza
                                                    Danny Clay
                                                    Kelly Crawford
                                                    Hope Favreau
                                                    Kyle Flannery
                                                    Pilar Gamble
                                                    Matthew Hammond
                                                    Johnny McCray
                                                    Thomas McPherson
                                                    Mark Mullery
                                                    Brandon Parrinello
                                                    Lisa Van Haeren




VA Office of Inspector General                                                                   25
                                 Review of Alleged Mismanagement at VBA’s Eastern Area Fiduciary Hub


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




               This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                   26
